<html>
<title> - THE ELEMENTS OF PRESIDENTIAL TRANSITIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                      THE ELEMENTS OF PRESIDENTIAL
                              TRANSITIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2020

                               __________

                           Serial No. 116-129

                               __________

  Printed for the use of the Committee on Oversight and Reform


             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       Available at: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov

                                __________
                            
                  U.S. GOVERNMENT PUBLISHING OFFICE                             

42-596 PDF                WASHINGTON : 2021                             




                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman


Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
              Wendy Ginsberg, Subcommittee Staff Director
                          Taylor Jones, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Jody B. Hice, Georgia Ranking 
    Columbia                             Minority Member
John P. Sarbanes, Maryland           Thomas Massie, Kentucky
Jackie Speier, California            Glenn Grothman, Wisconsin
Brenda L. Lawrence, Michigan         Gary Palmer, Alabama
Stacey E. Plaskett, Virgin Islands   Ralph Norman, South Carolina
Ro Khanna, California                W. Gregory Steube, Florida
Stephen F. Lynch, Massachusetts
Jamie Raskin, Maryland





                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on December 10, 2020................................     1

                               Witnesses

Martha Joynt Kumar, Professor Emerita, Department of Political 
  Science, Towson University
Oral Statement...................................................    10
Max Stier, President and Chief Executive Officer, Partnership for 
  Public Service
Oral Statement...................................................    12
Lisa Brown, Vice President & General Counsel, Georgetown 
  University
Oral Statement...................................................    14

Opening statements and the prepared statements for the witnesses 
  are available in the U.S. House of Representatives Repository 
  at: docs.house.gov.

                           Index of Documents

                              ----------                              

  * Letter from the Partnership for Public Service; submitted by 
  Rep. Connolly.

  * Coalition Letter from a number of organizations; submitted by 
  Rep. Connolly.

  * Joint statement by former OMB Management; submitted by Rep. 
  Connolly.

  * White House Transition Project Report; submitted by Rep. 
  Connolly.

  * ``Emily Murphy Was Right Not to Recognize Biden's Win Until 
  Now'', article, the Washington Post; submitted by Rep. Hice.

  * An article by Max Stier; submitted by Rep. Raskin.

  * An article from CREW by Eli Lee; submitted by Rep. Speier.

  * Questions for the Record: to Lisa Brown; submitted by Rep. 
  Connolly.

  * Questions for the Record: to Max Stier; submitted by Rep. 
  Connolly.

  * Questions for the Record: to Dr. Kumar; submitted by Rep. 
  Connolly.

The documents entered into the record during this hearing, and 
  Questions for the Record (QFR's) with answers, are available 
  at: docs.house.gov.




 
                THE ELEMENTS OF PRESIDENTIAL TRANSITIONS

                              ----------                              


                      Thursday, December 10, 2020

                   House of Representatives
      Subcommittee on Government Operations
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:03 a.m., 
via Webex, Hon. Gerald Connolly (chairman of the subcommittee) 
presiding.
    Present: Representatives Connolly, Maloney, Norton, 
Sarbanes, Plaskett, Raskin, Lynch, Speier, Hice, Comer, and 
Palmer, Massie, Grothman, and Keller.
    Mr. Connolly. I want to welcome everybody to today's remote 
hearing. Pursuant to House rules, members will appear remotely 
by Webex. I know we are all familiar with Webex by now but let 
me remind everybody about a few points.
    First, you have been using active view for our hybrid 
hearings. This will still work but grid view will give you a 
better perspective in a remote hearing and make you look 
better. If you have any questions about this please contact 
committee staff.
    Second, we have a timer that should be visible on your 
screen. Members who wish to pin the timer to their screens 
should contact committee staff for assistance.
    Third, the House rules require that we see you. So, please 
have your cameras turned on at all times.
    Fourth, members appearing remotely who are not recognized 
should remain muted to minimize background noise and feedback.
    Fifth, I will recognize members verbally but members retain 
the right to seek recognition verbally themselves. In regular 
order, members will be recognized in seniority for questions.
    Last, if you want to be recognized outside of regular order 
you may identify that in several ways. You can use the chat 
function to send a request. You may send an email to the 
majority staff or you may unmute your mic to seek recognition 
from the chair.
    Obviously, we do not want people talking over each other so 
my preference is that members use the chat function. It works 
very efficiently. Or email us to facilitate formal recognition. 
Committee staff will ensure that I am made aware of the request 
and I will recognize you.
    We will begin the hearing in just a second when we are 
ready to begin live stream. We are ready to go.
    All right. Committee will come to order. Without objection, 
the chair is authorized to declare a recess of the committee at 
any time and we may have to that because of the vote schedule 
this morning.
    And I now recognize myself for my opening statement.
    Every four or eight years our Nation has undergone a 
peaceful transfer of power. In 1981, for example, another one-
term president handed over the reins of government to his 
election adversary, Ronald Reagan.
    In the wake of the election, President Jimmy Carter calmed 
the Nation, saying, ``We will have a very fine transition 
period. I told him I wanted the best one in history.''
    President Carter even sent incoming President Ronald Reagan 
a telegram that read, ``It is now apparent that the American 
people have chosen you as the next president. I congratulate 
you and pledge to you our full support and cooperation in 
bringing about an orderly transition of government in the weeks 
ahead. My best wishes are with you and your family as you 
undertake the responsibilities that lie before you.''
    Unfortunately, our Nation has yet to see that kind of 
graciousness in a telegram or tweet this time around. I called 
this hearing today to examine the laws, norms, and 
administrative practices that make a peaceful and efficient 
transition possible.
    What have we learned over 36 Presidential transitions that 
have followed Presidential elections? The first one, of course, 
was President George Washington relinquishing his office to 
President John Adams, and what improvements can we make for 
future transitions?
    The transition currently underway to the Biden 
administration marks the twenty-fifth Presidential transition 
when the incoming president is of a different party than the 
outgoing president.
    This election was the first in 28 years when in which an 
incumbent president sought reelection and failed, and only 10 
times in our Nation's history has a sitting president lost a 
reelection bid.
    This context looms large over Congress's job to ensure that 
the transfer of power remains peaceful but occurs. The 
transition period between administrations is when our Nation 
often is at its most vulnerable. In 1932-33, for example, at 
the peak of the Great Depression, then-President Hoover and 
President-Elect Franklin D. Roosevelt failed to cooperate, 
delaying much-needed relief to a starving public.
    In February 1993, shortly after Bill Clinton's 
inauguration--I am sorry--terrorists attacked the World Trade 
Center in New York City the first time.
    In 2009, President Obama was inaugurated during one of our 
Nation's most severe financial crisis since the Great 
Depression and America is practiced in transition during 
duress.
    This transition, in the midst of an unprecedented pandemic 
and economic stress, is no exception. Even in the smoothest of 
transitions, the president elect and vice president elect have 
between 72 and 78 days in which to take the reins of the 
Federal Government.
    In the 2020 transition, the General Services Administration 
delay in ascertaining the winner of the election has but the 
post-election transition period to just 57 days.
    The loss of 20 days is consequential both to the incoming 
administration and, more importantly, to the Nation as a whole. 
In 57 days, the president and vice president elect must staff 
the White House and the executive office of the president, 
creating a government structure to organize, prepare, and train 
teams to lead the more than 100 departments and agencies of the 
Federal Government.
    These teams will be the point of a spear that works 
throughout the next administration to reinvigorate the more 
than 2.1 million civilian employees, 3.5 million contract 
employees, and 1.3 million military employees who serve and 
protect this Nation every day.
    And that is just one transition responsibility. As you can 
see on the screen, during the next 41 days the Biden 
administration will be preparing to make more than 4,000 
Presidential appointments, roughly, 1,200 of which require the 
Senate's advice and consent.
    Many of those appointees will need to undergo thorough 
time-consuming background investigations. As I have already 
noted, this new administration is taking these steps in the 
midst of a global pandemic that is worsening by the day, really 
worsening by the day.
    These individuals will inherit the top positions of a 
nation in need of economic stimulus more than ever. They 
inherit a country where racial tensions have been stoked over 
the past four years.
    Sending up an effective transition team is a tall task and 
it highlights the importance of getting the things right and 
helping this administration get the leaders, support, and 
resources it will need to bring this Nation back from the 
brink.
    The primary law that governs the transfer of power is the 
Presidential Transition Act of 1963. As you can see on the 
screen, the law has been amended significantly four times to 
address lessons learned from previous transitions.
    Prior to Presidential elections the law requires eligible 
candidates to establish a transition-related organizational 
structure, making sure that would-be presidents are prepared 
for the post-election sprint.
    The law also authorizes funding for office space, staff 
compensation, and public transition services for both the 
president and vice president elect and their team.
    Importantly, the law also aligns outlines the process by 
which candidates can designate and start vetting candidates who 
would fill important national security or other sensitive roles 
in the incoming administration. This law is meant to ensure a 
new president is ready to lead on day one.
    In the transition from George Bush to Barack Obama, the 
Obama/Biden transition team had more than 349 individuals 
cleared to enter agencies, to learn about their operations, and 
engage the work force for the transition.
    In 2016, President-elect Donald Trump had 323 people 
cleared to enter agencies. Setting up a transition team is like 
designing the Nation's largest startup company.
    This year, those teams are taking the baton on vaccine 
production and distribution, economic relief, and they face a 
president, though, who could very well be facing a conflict 
with Iran that could affect our national security directly. The 
stakes are high. They couldn't be higher.
    Pursuant to the Presidential Transition Act, it is the 
administrator of the General Services Administration who 
triggers access to transition funding and office space.
    In the wake of this election, the administrator 
inexplicably made what should be a ministerial decision into a 
political one.
    At this hearing, we will examine ways to amend the 
Presidential Transition Act to put clearer guardrails which, I 
might add, the administrator of GSA has invited Congress to do, 
on what it means to ascertain a Presidential election and the 
winner.
    We will also examine at this hearing the role of Congress 
during the lame-duck period. We have a responsibility to ensure 
that this administration does not place political appointees 
who lack qualifying expertise into the competitive civil 
service or promulgate so-called last minute midnight 
regulations or fail to properly collect, retain, and preserve 
Presidential or Federal records.
    In addition to those political appointees who have burrowed 
in or who seek to, this administration has taken the troubling 
step of issuing an executive order that would potentially 
enable President Trump to fire scores of Federal employees on 
his way out the door and replace them with his political 
appointees.
    This strikes at the heart of a merit-based civil service. 
This order removes civil service protections from Federal 
employees, stripping their statutory appeals rights and 
permitting them to be replaced with political appointees.
    The order undoes 137 years of merit system hiring and 
expertise in our Federal work force and could be a harmful 
attack on the integrity of our government.
    I want to make the moment right now to insert into the 
hearing record several resources that underscore the intense 
bipartisan opposition to this executive order creating a so-
called Schedule F, including an op-ed from 50 former career 
officials and political appointees from the Office of 
Management and Budget and another letter from 22 good 
government organizations and scholars including the Partnership 
for Public Service, which Mr. Stier represents here today and 
we will hear his testimony.
    Mr. Connolly. A Presidential legacy should be earned over 
four years, not panic dumped on a nation six weeks before the 
outgoing president leaves office.
    That is why today I plan to introduce the Midnight 
Regulations Review Act with Chairwoman Carolyn Maloney, 
Chairman Raja Krishnamoorthi, and Representative Jackie Speier.
    The legislation would require the Government Accountability 
Office to create a list of the regulations that the outgoing 
administration promulgates during the lame-duck, which would 
allow Congress and the incoming administration a review, 
whether they are based on evidence and research or whether they 
should be considered for amendment or elimination.
    Congress must take stop immediately of harmful regulatory 
actions launched by any outgoing administration in order to 
exercise its authority to repeal regulations pursuant to the 
congressional Review Act.
    The bill also builds on the bipartisan work of Senate 
colleagues Ron Johnson, Republican of Wisconsin, and Tom Copper 
of Delaware, requesting that GAO produce a report similar to 
the one we are going to require a year after the inauguration 
to examine more in depth the impact of specific midnight 
regulations.
    The nation needs the next administration to be a success. 
We need our people to stay safe and healthy during what 
promises to be the deadliest stretch of the pandemic yet. We 
need vaccine production and distribution to be comprehensive 
and efficient.
    We need to prevent small businesses from collapsing and 
keep renters and homeowners with roofs over their heads. We 
need to heal the acrimony that divides our Nation.
    To make that possible, we need the outgoing administration 
not to burn the building down on its way out. We need a new 
team to have the opportunity to restore what makes America 
great. It is time we put our Nation before our political party.
    I look forward to hearing from our witnesses and I now call 
on the distinguished ranking member, Mr. Hice, for his opening 
statement.
    Mr. Hice. Thank you, Mr. Chairman, and I would just like to 
say I noticed that Mr. Sarbanes has joined the conference--the 
hearing today, and it is my understanding he just lost his 
father yesterday, and I just want to extend my condolences. I 
know I lost my dad about a year ago and prayers with the 
Sarbanes family, and I am sorry.
    Mr. Sarbanes. Thank you very much. Thank you very much. I 
appreciate that. Thank you.
    Mr. Hice. You are very welcome.
    Mr. Connolly. Mr. Hice, if I could interrupt and without 
penalizing your time, I had the privilege of working for Paul 
Sarbanes for 10 years in the U.S. Senate on the Foreign 
Relations Committee.
    He was a towering figure. He, perhaps, had the most 
penetrating intellect I have ever worked with or for, 
certainly, in the U.S. Congress.
    He was quiet but he was effective. He was the kind of go-to 
guy where people, on a bipartisan basis, sought counsel and 
guidance and insight, and that is how he exercised enormous 
influence in the U.S. Senate on a range of issues.
    Of course, Sarbanes-Oxley is named after him. But that only 
begins to, frankly, penetrate his influence on the U.S. 
Government and, certainly, the U.S. Senate over those years.
    So, John, our hats go out to you and the family. I know you 
were proud of your dad. It was a privilege in my life and 
career to have spent 10 years working with him. Thank you for 
allowing me.
    Mr. Sarbanes. Thank you. I appreciate that very much, Mr. 
Chairman, and to the ranking member, thank you for taking a 
moment to pass your greetings and thoughts. Thank you.
    Mr. Hice. Well, you are very welcome and it is very 
heartfelt, our feelings toward you and your family.
    Thank you, Chairman Connolly, for calling this hearing 
regarding the ongoing Presidential transition. This year's 
transition highlights a number of significant shortcomings in 
the governing statute for transitions and I think this is 
something that we all need to look at.
    At present, it is ultimately a judgment call by the GSA 
administrator as to when a victor is apparent in order that 
they can ascertain the winner before providing post-election 
fines or services. It is very difficult to operate under the 
statute of apparent sometimes, and that was certainly the case 
this year.
    As I personally made clear in a letter to the GSA on 
November 13, even the drafters of the Presidential Transition 
Act contemplated that an ascertainment should not be made if 
the results were uncertain and unapparent. Again, that was 
certainly the case this year.
    With no guidance or clarity, GSA looked to the precedent 
set under the Clinton Administration in 2000 when it waited 
until December the 12 decision in the Bush v. Gore in order to 
make an ascertainment.
    We certainly have not waited that long. Looking for some 
element of official action before ascertaining a winner, which, 
ultimately, came when key states certified their election 
results, was an acceptable course of action, given the 
ambiguous nature of this year, as I mentioned earlier.
    I encouraged GSA to do what they are supposed to do, which 
is to follow the law, not to react to the vitriol being spewed 
by the political left, enabled by the mainstream which, quite 
frankly, has become nothing more than their propaganda arm.
    This led to threats, led to threats of violence against 
Administrator Murphy and her staff. This is shameful, shameful 
behavior by everyone who is involved.
    To those who shriek about the Trump campaign exercising its 
right to contest the results, I would say it is bold talk 
coming from a group that for four years has refused to 
acknowledge the legitimacy of President Trump's victory and his 
presidency even to the extent of calling for impeachment before 
he was even inaugurated, even having investigations and spying 
into his campaign, and perhaps those are the types of things 
that the chairman was referring to about this administration 
not exercising those types of behaviors if there is a 
transition coming now.
    So, you know, when you look at the collusion accusations 
from the Obama Administration, the Clinton campaign, the FBI, 
and even a Russian agent, all to fabricate a false narrative of 
collusion against the Trump campaign, this is unbelievable that 
we are looking at and even making accusations, potentially, of 
the Trump campaign right now.
    Not to mention, as I already referenced, a kangaroo court 
on an impeachment trial. The reality is that Joe Biden himself 
has provided an answer to all of this.
    He said, quote, ``I think we are going to not be so far 
behind the curve as we thought we might be in the past. There 
is a lot of immediate discussion and I must say the outreach 
has been sincere,'' end quote, that coming from Joe Biden 
himself.
    Moreover, TSA has been working on the transition for over a 
year and has provided the Biden campaign resources as early as 
September, back when Democrats were campaigning on promises to 
defund the police and implement the Green New Deal.
    It is not true that the less than three weeks--it was less 
than three weeks that I want to emphasize. It is not true that 
the less than three weeks that GSA waited somehow put our 
national security at risk or delayed distribution of a COVID-19 
vaccine.
    The truth is that Joe Biden had free election resources 
made available to him and plans for COVID-19 vaccine 
distribution were well underway. And like the George W. Bush 
scenario in 2000, nothing prevented Joe Biden from vetting and 
selecting the individuals he intends to nominate for key 
positions during those three weeks or even before the election.
    The Trump administration should actually be applauded for 
their endeavors both pre-and post-election. Personally, what I 
am concerned about are the many constituents in my district and 
beyond who don't have confidence in whether the vote was 
accurately even counted.
    I am concerned Democrats have completely ignored the 
question of the election irregularities and have done exactly 
nothing to investigate them.
    Mr. Chairman, I hope that at some point we will be able to 
look at those things because that should be bipartisan. 
Election integrity impacts everyone in our country and, of 
course, the entire direction of our country. I hope we will be 
able to go down that path at some point in the future.
    And with that, I yield back. Thank you.
    Mr. Connolly. Thank you, Mr. Hice, and certainly, if there 
are irregularities we want to know about them. I will point out 
for the record the Republican coordinator for the mechanics of 
elections in your home state of Georgia actually has stated 
publicly that there were not such irregularities and that, 
indeed, Joe Biden had one the election.
    And with respect to violence, he had a press conference 
condemning threats of violence against him and other Republican 
officials in your state who had the intestinal fortitude to 
defend the results of the election.
    I might add that all of that was also reinforced by the 
secretary of state of Georgia, who is also a Republican and who 
also reiterated that in three checks the results are the same.
    President-elect Biden has won the electoral votes of 
Georgia, and that there was no evidence of fraud or substantial 
irregularities of any kind that would materially affect the 
outcome of the election.
    So, we can do that, but I guess in this particular case----
    Mr. Hice. Would the gentleman yield?
    Mr. Connolly. Of course.
    Mr. Hice. Thank you, Mr. Chairman. Listen, I am fully aware 
of those that you referenced. I am also fully aware both in the 
House and the Senate and in multiple lawsuits and in multiple 
other ways we have hundreds, we have thousands of affidavits of 
irregularities and potential voter fraud, and regardless of a 
secretary of state who is trying to hide his own political 
career and trying to convince people there were no 
irregularities the facts point otherwise, and I hope that we 
will be able to look into these.
    Again, the election security and integrity impacts not only 
Georgia, it impacts our entire nation and where those 
accusations are severe and alarming I think it is incumbent 
upon us to look into it.
    Thank you.
    Mr. Connolly. Thank you.
    I now call on the distinguished chairwoman of the full 
committee for her opening statement.
    Chairwoman Maloney, welcome.
    Chairwoman Maloney. Thank you. Thank you, Mr. Chairman 
Connolly and Ranking Member. I thank both of you for calling 
this hearing and I would like to be associated with your 
remarks on the loss of our great friend and colleague, Paul 
Sarbanes.
    He was an iconic leader and legislator. It was my honor to 
work with him on working for stronger relations between Greece, 
Cyprus, and America, and I worked with him on financial 
regulation and bills as chairman of the Finance Committee.
    He had a towering impact on legislation that will help this 
country for decades to come, most notably the Sarbanes-Oxley 
Act that really brought accountability to corporate America, 
more transparency, and, really, accountability to the American 
people. He was a towering figure and a really great person, and 
we join you, John, in mourning his--a great loss.
    Now I would like to thank Chairman Connolly very much for 
highlighting the many issues that have been raised by this 
unstable transition. An outgoing president should make every 
effort to assist and prepare the incoming administration to 
take office for the good of the country and for our national 
security.
    Instead of working to ensure the orderly transfer of power 
to the winner of the election, President Trump has been 
attacking the validity of the election and subverting the 
transition process.
    These actions are not only reprehensible and shocking, they 
are dangerous. But I am sorry to say that I am not surprised.
    Throughout his administration, President Trump has chosen 
to put his personal interests before the needs of the country 
and has disregarded both congressional oversight and, I would 
say, public scrutiny.
    According to press reports, he has ignored Federal records 
laws, regularly tearing up our shredding documents that are 
required to be preserved.
    The destruction was so bad that career records officers 
were reportedly forced to use Scotch tape to put important 
documents back together.
    Given this track record, I am deeply concerned that 
President Trump and his aides may attempt to conceal or destroy 
important White House materials during their last remaining 
days.
    That is why I sent a letter to the White House last month 
demanding the administration comply with their responsibilities 
under the Presidential Records Act and the Federal Records Act.
    Eight other committee chairs join me in this letter and we 
jointly demanded that the White House preserve all materials 
that are potentially responsive to the request and subpoenas 
issued by this Congress.
    These records belong to the American people. They are 
important for our historical record. They will also be critical 
to our ability to fix the damage that has been done during this 
administration.
    I look forward to the testimony of our witnesses today on 
this and other issues that need to be addressed to ensure that 
the current transition goes as smoothly as possible from this 
point forward.
    We must also work to ensure that future transitions are 
more seamless than this one. Thank you, and I yield back.
    [Technical issues.]
    Mr. Connolly [continuing]. That have been exposed during 
this transition.
    Mr. Comer, the distinguished ranking member of the full 
committee, are you with us?
    Mr. Comer. Yes.
    Mr. Connolly. You are recognized for an opening statement. 
Welcome.
    Mr. Comer. Well, thank you, Chairman Connolly, and for all 
the witnesses appearing here today. I would like to thank 
Ranking Member Hice for his leadership in this area, 
particularly the letter he sent to the GSA administrator 
advising her about the requirements of the Presidential 
Transitions Act and encouraging her to stand strong and follow 
the law in the face of great opposition.
    We should all be thankful for public servants like GSA 
Administrator Emily Murphy, who followed the law even as she 
was vilified in the media and received thousands of threats 
against herself and her staff.
    Government officials take an oath to uphold the 
Constitution and the laws pass through our government, and her 
adherence to the Presidential Transition Act as written should 
be commended, not lamented.
    The act provides no clear guidelines for how the GSA 
administrator should proceed when elections are contested, and 
this is something that needs to be fixed.
    I suspect Democrats will attempt to portray the three weeks 
that passed between the election and ascertainment as 
incredibly detrimental to the Biden administration, a ready 
excuse for anything that goes wrong.
    But the real work of transition, choosing and vetting a 
team begins well before the election and doesn't have anything 
to do with GSA, and indeed, Joe Biden himself and people close 
to him have said the transition, quote, ``has been fairly 
smooth.''
    Vaccine distribution plans have been coming along, although 
if memory serves some Democrat Governors aren't that eager 
about a vaccine developed under President Trump.
    As for access to the president's intelligence briefing 
book, it might have made the country safer having a three-week 
delay, given the ties of the state and DNI nominees to China.
    I will end by echoing Ranking Member Hice's concerns, 
concerns shared by my constituents that widespread voting 
irregularities and even reports of outright fraud may have 
disenfranchised their votes.
    So, I would echo his call for this committee to hold 
hearings to examine this election to ensure that our 
constituents can be confident that their vote counts.
    Thank you, and I yield back.
    [Technical issues.]
    Mr. Connolly [continuing]. Your remarks.
    I now want to introduce our three witnesses and I will note 
that votes have now been called. There are two votes in this 
first and last series. So, there will be some interruption.
    My hope is that we can continue to do the hearing.
    Ms. Norton, I may ask you to take over the chair while I 
vote, if you can do that.
    Ms. Norton. Of course, Mr. Chairman. Happy to. I am able to 
vote. I am always available----
    [Laughter.]
    Mr. Connolly. You are wonderful.
    Ms. Norton [continuing]. Until the D.C.--until the D.C. 
Statehood bill passes. Thank you.
    Mr. Connolly. Exactly. Exactly. I look forward to the day 
where I can ask you for this favor. Thank you so much. I 
appreciate it.
    Our first witness today is Martha Joynt Kumar, who is the 
director of the White House Transition Project. Then we will 
hear from Max Stier, who is the president and chief executive 
officer of the Partnership for Public Service, which has done a 
lot of work on transitions. And finally, we will hear from Lisa 
Brown, who was the co-director of Agency Review for Obama/Biden 
Transition Project.
    If the witnesses will be unmuted so we can swear you all in 
as is the custom of our committee, and if I can see them. If 
you can put them on the screen so I can see them.
    [Technical issue.]
    Mr. Connolly [continuing]. Max Stier and Martha Joynt, I 
see you all. If you would raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Witnesses are sworn.]
    Mr. Connolly. Let the record show that all of our witnesses 
have answered in the affirmative. Thank you. And without 
objection, your full written statements will be made part of 
the record.
    With that, Ms. Kumar, you are now recognized for your five-
minute testimony and we welcome you before the committee.

STATEMENT OF MARTHA JOYNT KUMAR, PROFESSOR EMERITA, DEPARTMENT 
            OF POLITICAL SCIENCE, TOWSON UNIVERSITY

    Ms. Kumar. Thank you very much.
    Good morning, Chairman Connolly, Chairwoman Maloney, 
Ranking Member Hice, and Ranking Member Comer.
    And I would like to say a word about Paul Sarbanes. As a 
professor at Towson University in Baltimore, Senator Sarbanes 
was very generous with his time to students and both in having 
students in his office as interns and as meeting with--the 
sessions that the students greatly prized.
    Following the hearing theme of the elements of a 
Presidential transition, I would like to briefly explore three 
elements that are important aspects of recent transitions.
    First, the strength of the 1963 Presidential Transition 
Act. In the 58 years since the president and Congress formally 
considered transition legislation, the two branches have done 
so in a bipartisan manner.
    As the stakes in a smooth transition rose, they increased 
the resources and the government institutions involved in 
transitions. The General Service Administration was the lead 
transition institution in 1964, but now our Presidential 
transition is an all of government operation with the president 
playing a lead role along with his departments and agencies.
    Changes in the political environment, national security 
concerns, transition experiences, and the increase in the 
complexity of government all have played into the development 
of the current shape of transition planning.
    The two branches have constructed a transition framework 
that now moves up the clock to after the major party nominating 
conventions and provides funds to both party candidates, not 
just a president-elect.
    Laws also provide for an information structure that calls 
upon the president to create a council setting transition 
policy for departments and agencies.
    Second, tacit understandings between presidents and 
presidents-elect, and as important as the transition laws have 
been in creating a supportive framework for Presidential 
transitions, equally important is the support presidents have 
offered to their successors.
    Until this year, incumbent presidents who lost their 
campaigns for reelection have quickly conceded their loss, and 
second, called upon their staffs to pave a smooth road for the 
president-elect and his team.
    George H. W. Bush, our most recent one-term president who 
ran for reelection, instructed his White House senior staff the 
day following his 1992 defeat to, quote, ``Be helpful and leave 
no ticking time bombs for the incoming Clinton 
Administration,'' according to his White House economic and 
domestic policy advisor, Roger Porter. ``The voters have 
spoken,'' Bush said, ``and our job is not to make the task of 
the incoming administration more difficult than it would 
otherwise be.''
    Third, planning their own truncated transitions. Both 
George W. Bush and Joseph Biden were stalled for weeks from 
receiving the information and materials developed for them and 
their staffs. Instead of 75 days, their transitions were 
limited to 37 and 57 days, respectively, prior to Inauguration 
Day.
    Yet, both developed strategies that ameliorated their 
situations. In their campaigns, both Biden and Bush focused on 
a digestible number of issues that they could easily translate 
into governing priority proposals.
    Both men focused, first, putting a Presidential decision-
making system in place by constructing a White House staff 
prior to choosing their cabinet secretaries and announcing 
their policy initiatives.
    Additionally, Bush and Biden set up functioning personnel 
systems well before the election in order to have a team in 
place.
    Dante Fascell, the sponsor and floor manager of the first 
Presidential Transition Act, had a goal of institutionalizing 
transition process based on access to information and 
cooperation from government officials. His goal has been met 
almost all the Presidential transitions since the Act became 
law in 1964.
    Congress and the president recognized then and continues to 
acknowledge the importance of an effective transition to a good 
start for a new president. Having a well-organized operation 
developed early in the election year benefits a president and 
the public as well.
    With an experienced and knowledgeable staff, an incoming 
president can seize the political momentum and establish his 
brand of leadership at a time when the public is paying 
attention. Transition law has provided presidents opportunities 
to gather information----
    Mr. Connolly. Ms. Kumar?
    Ms. Kumar, if I could just ask you to sum up because we are 
trying to ask everyone to do a five-minute summary and then we 
will get into questions afterwards.
    Ms. Kumar. Well, I just have two more sentences.
    Mr. Connolly. OK. Great. Sorry. Sorry for the interruption.
    Ms. Kumar. Oh, that is OK.
    Transition has provided presidents opportunities to gather 
information they need and to enable them to deal with the 
national security challenges that inevitably rise in the early 
days of an administration.
    With the late start and the 2020 transition during a time 
of a pandemic and with the economic crisis as well, we may be 
at a point for Congress to revisit transition laws and assess 
where there are needs for legislative fixes.
    Mr. Connolly. Thank you so much, and it was nice of you to 
mention Dante Fascell. I knew Dante very well and worked with 
him when I was a young Senate staffer before he was chairman of 
our committee and after he became chairman of our committee. He 
was a great American. Thank you for remembering him.
    Ms. Kumar. He was very important to the development of the 
legislation, starting in 1962.
    Mr. Connolly. Yes.
    Mr. Stier, you are recognized for a five-minute piece of 
testimony and, of course, your full statement will be entered 
into the record.
    Welcome.

STATEMENT OF MAX STIER, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
                 PARTNERSHIP FOR PUBLIC SERVICE

    Mr. Stier. Many thanks, Chairman Connolly, and Ranking 
Members Hice and Comer, for this hearing and for inviting me. 
It is a pleasure to be here with Martha Kumar and Lisa Brown, 
who are phenomenal colleagues in this area.
    We have heard a lot already about how important a 
Presidential transition is. It is ultimately about the--not 
just the peaceful transfer of power but, ultimately, about the 
effective transfer of power.
    Come January 20, we will have a president and his team that 
will be responsible for an extraordinary set of real 
challenges: the pandemic, the needs around the economy, and the 
list goes on and on. Those are the knowns, and there will be 
unknowns as well.
    The transition process is a monumental task. It is 
impossible if there is no private sector analog it is so large. 
You think about the contours of our government: $5 trillion, 4 
million people, half of them military reservists and in 
uniform, hundreds of operating units, and, as the chairman has 
already identified, the 4,000 political appointees that need to 
be brought in.
    It is a massive task and the history is that it takes a 
long time to get it done. The history is also terrific to see 
that Congress has done so many updates of it and has learned 
from past practice.
    We are, obviously, not done yet. This is still the middle 
of the race and, therefore, everything we are talking about is 
really an interim assessment. But there are real opportunities 
for improvement.
    The Partnership and its Center for Presidential Transition 
has been at this work for a very long time. Since 2008, we have 
helped every team get ready for McCain to Obama, Romney, 
Clinton, Trump, and now the Biden team. So, thanks to this 
committee for the updates you did just this year.
    We will do a review of what has happened when it is all 
over. But in the meanwhile, we do have a set of 10 interim 
recommendations captured in my testimony and I am going to hit 
seven of them if I can, very quickly.
    The first where there seems to be a unanimous view on this 
we do need to clarify the standard for post-election transition 
support. It should be a ministerial decision, it should be 
clear, and it should be a low bar.
    This is not about deciding who is president. This is 
deciding whether someone is going to get the information they 
need and help they need to be ready to govern if they are in 
charge on January 20.
    No. 2, we need to make more support available pre-election, 
and this will actually help in a very substantial way this 
first question around clarifying the standard. This, Congress 
has already done a lot of great work about lengthening the 
runway so there is more pre-election activity done in 
transition planning.
    One of the best examples of this is in 2004 when, in light 
of the 2001 attacks, Congress came back and said, we are going 
to allow for security clearances, interim security clearances, 
to be done pre-election, and that was extremely important and 
we believe that there are many things that could be done that 
would move forward some of the support whether it is the Office 
of Government Ethics, doing reviews blindly pre-election, or 
many other places where you can actually help the transition 
teams do work pre-election so they don't actually have to do it 
post-election and so they are even better ready than they are 
today.
    No. 3, and very importantly, we need to reduce the number 
of political appointees and those that require Senate 
confirmation. The biggest task that an incoming team has to do, 
and it is overwhelming, is to get 4,000 people in place.
    Four thousand isn't the magic number. It is a number that 
has actually grown over time. It has doubled since 1960 overall 
and the number of Senate-confirmed positions have increased by 
20 percent since 1980.
    If you reduce the number you make it a lot easier for a new 
team to come in and you will make our government work even 
better. Senator McCain actually introduced legislation in 2010 
to do just this and identify $800 million that could be saved 
over 10 years by cutting the number of political appointees in 
half.
    No. 4, we do need to stop Schedule F. We have too many 
political appointees. The last thing we need to do is create, 
you know, 10, 100, X number of political appointees.
    That is not how you get effective government. That is not 
how you make sure we have efficiency in our government. We need 
a professionalized civil service that will ensure that our 
problems are addressed in the most cost-effective ways. 
Schedule F runs exactly contrary to that.
    No. 5, we also need to look at the burrowing rules where 
there are some requirements that are relatively new that there 
are reports to Congress.
    They should be public, and I think we need to review to see 
whether the actual transfer of a political appointee to a 
career civil service position should actually have a higher 
standard itself.
    We also need, six, information. We need a modernized Plum 
Book. We should have real-time information about who the 
political appointees are, not just the Senate-confirmed ones 
but the entire 4,000.
    And, last, we also need to update the Federal Vacancies 
Act. We have seen a bunch of issues associated with that. We 
can do better.
    And then, finally, and the most important think I can say 
right now is, Congressman Sarbanes, I too join the list of huge 
fans of your father, who was a towering public servant. You 
have done remarkable work yourself. I am sure he was very, very 
proud of you and I just want to give you my condolences and 
thank you for following in his footsteps.
    Mr. Connolly. Thank you, Max.
    John, did you want to respond? OK.
    Mr. Sarbanes. Yes, just--yes, quickly. Thank you, Max, and 
others who have acknowledged my father's work. It has been 
quite overwhelming the last few days, the tributes and 
remembrances that have come in. But the constant theme which is 
being echoed here today is that he was a workhorse, not a show 
horse.
    He put his head down. He just wanted to help people. He did 
that every single day and he did it in a quiet but steady and 
determined fashion. So, thank you for paying your respects. I 
appreciate it.
    Mr. Connolly. Thank you, John.
    Ms. Brown, you are welcome and we look forward to your 
five-minute testimony. Thank you.

 STATEMENT OF LISA BROWN, VICE PRESIDENT AND GENERAL COUNSEL, 
                     GEORGETOWN UNIVERSITY

    Ms. Brown. Thank you.
    Chairman Connolly, Chairwoman Maloney, Ranking Members Hice 
and Comer, and distinguished members of the subcommittee, thank 
you for inviting me to testify at today's hearing.
    As Chairman Connolly indicated, I served as co-director of 
Agency Review for the Obama/Biden transition. Since then, I 
have participated in nonpartisan confidential convenings 
organized by Max's Partnership to brief Presidential campaigns 
for both parties on the importance of an effective transition 
and what that entails.
    I have also been on the other side of a transition when, as 
counsel to Vice President Gore, I helped oversee an orderly 
transition out of the White House after Vice President Gore 
conceded the 2000 election to George W. Bush.
    Presidential transitions are times of vulnerability for our 
country. Not only is there a change in precedent, there is 
simultaneously a change in leadership at every executive branch 
agency.
    Risks range from delays to oversight to errors, and on the 
national security front to being caught flatfooted by a savvy 
adversary with ill intent.
    It is, therefore, vital that the transition of power from 
one Presidential administration to the next be as seamless as 
possible. No business would ever choose to have their entire 
leadership leave on one day.
    The only reason the executive branch is able to do so 
successfully every four or eight years, including during times 
of crisis, is because of the cooperation of the outgoing 
administration and the professionalism and expertise of career 
civil servants.
    This is not a partisan issue. This is about the efficient 
and effective functioning of government with the people it 
serves.
    I have personally benefited from such cooperation when I 
became assistant to the president and staff secretary. I 
entered the White House on the afternoon of the inauguration 
and found an office that had little more than furniture and a 
computer with a wiped hard drive.
    I was expected to start work immediately. My ability to do 
so seamlessly was due to the fact that during the transition I 
had met with Raul Yanes, the final staff secretary to President 
Bush, and his predecessor, then-Judge Kavanaugh, as well as 
John Podesta and Todd Stern, staff secretaries for President 
Clinton.
    All had been gracious with their time, forthcoming and 
helpful in advising me how to navigate my new job. It continued 
a long nonpartisan tradition through many administrations, has 
benefited both new officeholders and the country they serve.
    Transition from President Bush's administration to that of 
President Obama was successful because of the extensive 
cooperation between the two. President Bush set the tone for 
collaboration from his White House staff to Cabinet secretaries 
and agency heads and their political and career staffs.
    Federal Government is a complex bureaucracy, making any 
transition a daunting task and a massive amount of work. Even 
when one has the full allotment of time between Election Day 
and Inauguration Day.
    Agency Review, which is just one piece of the transition, 
entails establishing a structure and process to review over 100 
executive departments, agencies, and commissions.
    Our structure involved over 500 people specific to use for 
each agency. Thanks to the strong working relationship with the 
White House, the members of our Agency Review teams had 
received security clearances prior to the election and we had 
agreed on a process enabling teams to go into the agencies soon 
after.
    I met with the GSA transition team the morning after the 
election and our teams then spent days meeting with career 
employees who were consummate professionals and absolutely 
indispensable to the efficient and smooth transition. If we ran 
into any glitches, we were able to raise them with the 
executive director of the transition, who resolved them 
expeditiously with his White House counterpart.
    Why does all of this matter? The goal of Agency Review is 
to complete a timely and thorough review of agencies in the 
White House, to provide the president-elect, Cabinet 
appointees, and their key advisors with the critical 
information needed to begin governing the minute they take 
office.
    The information collected informs the policy and budget 
planning process and personnel selection during the transition, 
and ensures that new administration officials can hit the 
ground running when they take office the day after 
inauguration.
    Agency Review ensures that new appointees will know what 
they will immediately confront when they walk in the door, what 
pressing legislative, litigation, regulatory, budgetary, or 
programmatic matters will require immediate action so they 
don't drop any balls or miss an opportunity to act.
    Agency Review also identifies key opportunities to begin 
implementing the president-elect's policy priorities of each 
agency. This work, which must occur at every agency, is 
critical to protecting and serving the American people.
    The challenges facing the country today are even more 
daunting than those we faced in 2008, making cooperation 
between the outgoing and incoming administrations more 
important than ever.
    I look forward to answering your questions and thank you 
again for the opportunity to testify. Let me please add my 
condolences regarding Senator Sarbanes.
    He was a remarkable public leader. I am a Maryland resident 
and so have for a long time followed him and been grateful to 
him.
    Mr. Connolly. Thank you so much, and as a matter of fact, I 
am going to call--out of respect for the memory of his dad and 
for the wonderful work he is doing, too, I am going to call on 
Mr. Sarbanes to--for the first questioning.
    Before I do that, let me just run down for Ms. Norton the 
order. Obviously, she could change it. But it is going to go 
Mr. Sarbanes, Mr. Hice, Mrs. Maloney, Mr. Palmer, Ms. Speier, 
Mr. Comer, and then Brenda Lawrence, Delegate Plaskett, 
Congressman Lynch, Congressman Raskin, and I will probably do 
cleanup.
    So, in just a little bit, Ms. Norton, I am going to ask 
you, if you would, to run the hearing while I go and cast two 
votes. I have myself and the proxy. I will be as fast as I can 
and try to come back. But I really appreciate your willingness 
to do that, if that is OK with you, Ms. Norton.
    Ms. Norton. Of course, Mr. Chairman. Of course, Mr. 
Chairman.
    Mr. Connolly. Thank you so much. Thank you so much.
    And I now call on Mr. Sarbanes for his five minutes of 
questioning.
    What? Oh, sorry about that.
    Ms. Speier, are you there?
    [No response.]
    Mr. Connolly. Mrs. Lawrence?
    [No response.]
    Mr. Connolly. Ms. Plaskett?
    [No response.]
    Mr. Connolly. Mr. Lynch?
    [No response.]
    Mr. Connolly. Mr. Raskin?
    [No response.]
    Mr. Connolly. All right.
    Mrs. Maloney, are you prepared to go?
    [No response.]
    Mr. Connolly. Mr. Raskin, are you there?
    [No response.]
    [Laughter.]
    Mr. Connolly. Well, all right. You know what? I think, Ms. 
Norton, normally I would go last. But if you don't mind, I will 
go now and then hand over the gavel to you while I go vote.
    Ms. Norton. Of course. Of course, Mr. Chairman.
    Mr. Connolly. Thank you so much.
    And, Mr. Hice, I believe you are there so you would be the 
first on your side of the aisle.
    [No response.]
    Mr. Connolly. People are probably voting. OK.
    On November 9--I recognize myself for my five minutes of 
questioning.
    On November 9, days after Joe Biden was projected as the 
winner of the Presidential election, President Trump actually 
instructed leaders of Federal agencies not to recognize the 
Biden victory and to block cooperation with President-elect 
Biden's transition team.
    In addition to those actions, President Trump even proposed 
the treacherous idea of state legislatures overturning election 
results to favor him. Such actions, clearly, could undermine 
trusted democracy and, in fact, do, and further hamper the 
incoming administration's ability to access information to get 
ready to govern.
    Ms. Brown, when you were co-chair of Agency Review for the 
Obama/Biden Transition Project, how important was it for the 
incumbent administration to acknowledge the process and to work 
with you rather than, effectively, against you?
    Ms. Brown. President Obama----
    [Technical issue.]
    Ms. Brown. Sorry.
    Mr. Connolly. Go ahead.
    Ms. Brown. First----
    [Technical issue.]
    Mr. Connolly [continuing]. So, that we can hear Ms. Brown. 
Thank you.
    Go ahead, Ms. Brown.
    Ms. Brown. Thank you.
    President Obama himself has often cited President Bush's 
collaboration as absolutely indispensable to his transition. 
They worked very closely. The administrations worked very 
closely together.
    As you have indicated, President Obama was taking office 
during a recession and it was a time of crisis, and President 
Bush actually worked--his team worked with our team to tee up 
decisions and say, which decisions do you want us to make, 
which decisions do you all want to make, and in order to ensure 
that at such a time of crisis the transition was as smooth as 
possible.
    And we were welcomed into agencies. We were able to get to 
work immediately, and it made all the difference. There is 
quite a lot of information that you access during Agency Review 
that is not public.
    So, you--it is not until that transition period post-
election that you are able to get access to classified 
information, for example.
    And so, certainly, with regard to national security matters 
it is vitally important that the incoming administration be 
fully briefed so that you don't have some type of a gap after 
they take office.
    Mr. Connolly. Thank you.
    And I think that you--that point you make about national 
security I am looking at the Center for Presidential Transition 
identifying a number of national security issues that are 
affected by the length of the transition and the cooperation or 
noncooperation, you know, just beginning with a review of 17 
intelligence agencies and their responsibilities and their 
issues, you know, a number of other key officials that they 
have to place into place, to say nothing of ongoing 
international security issues that matter, right.
    There is a war that just kind of got, you know, semi 
settled in the Nagorno-Karabakh. There is an active war in 
Ethiopia in the Tigray province. There is, you know, active 
Russian meddling in Ukraine, Moldova, Georgia. There is Chinese 
activity on the Indian border that has gone kinetic.
    I mean, there are lots of issues, plus terrorism and plus 
the Middle East and, I mean, you know, the United States can't 
interrupt its responsibilities in the world and national 
security is--looms very, very large and it needs to be 
seamless, to underscore your point, I think.
    Ms. Brown. Chairman Connolly, I might add, I believe the 9/
11 Commission actually referred to the delay in the Bush--when 
Bush came into office because of Bush v. Gore that he--his 
abbreviated--I think it was 50-plus days of transition was part 
of the reason that he was--it took him a long--much longer to 
get his national security team into place and I have cited that 
as one possible reason for 9/11.
    Mr. Connolly. You are exactly right. It was quite explicit 
that they cited that as a contributing factor to the 
unreadiness of the U.S. Government to the threat that 
ultimately, tragically, materialized on 9/11. Thank you.
    On November 23, the head of the GSA, Emily Murphy, finally 
ascertained the winner of the election, allowing President-
elect Biden to access post-election resources and information.
    In her letter, which I now insert into the hearing record, 
she suggested that Congress should create clearer guardrails on 
what it means for the GSA administrator to ascertain who the 
president and vice president-elect are.
    On the other hand, as early as November 8 the Partnership 
for Public Service and four former leaders of Presidential 
transitions released a statement saying, ``We congratulate Vice 
President Joe Biden and Senator Kamala Harris on their 
successful and historic campaign for the White House.
    While there will be legal disputes requiring adjudication, 
the outcome is sufficiently clear that the transition process 
must now begin.''
    I ask that this release also be included in the hearing 
record at this point.
    Mr. Connolly. Mr. Stier, among those who signed onto that 
letter I just referred to were Josh Bolten and former Utah 
Governor, Michael Leavitt. Those are big names in the liberal 
Democrat world, right?
    Mr. Stier. I am just looking at Ranking Member Hice. Am I 
permitted to answer the question, given the time?
    Mr. Connolly. Yes.
    Mr. Stier. OK. I just wanted to completely--Yes. I--so the 
Center for Presidential Transition is a part of the Partnership 
for Public Service. It is a----
    Mr. Connolly. No, my question was--my question to you was 
Josh Bolten and Utah Governor Michael Leavitt signed that 
letter. Are they liberal Democrats, to your knowledge?
    Mr. Stier. My point to you is the answer is we are a 
nonpartisan organization and we have leaders from both the 
Republican and Democratic Parties that are involved in this.
    Mr. Connolly. I don't know what's hard about this Mr. 
Stier.
    Mr. Stier. Yes. Yes.
    Mr. Stier, to your knowledge, are they liberal Democrats or 
are they Republicans?
    Mr. Stier. Chairman Connolly, as you know, they are 
Republican in their party affiliation. They are Americans in 
their treatment of the transition.
    Mr. Connolly. I understand that. I am trying to make the 
point that you are trying to make, if you would cooperate, and 
that is--that is that Republicans as well as Democrats signed 
that statement.
    This wasn't a partisan statement. It was a recognition of 
the results of a free and fair election that were fairly 
decisive. Would that be a fair way of describing it?
    Mr. Stier. Yes, it would.
    Mr. Connolly. OK.
    Is Mr. Hice back?
    Mr. Hice. Yes, sir.
    Mr. Connolly. OK, great. Mr. Hice, you are recognized for 
your five minutes of questioning, and then, Ms. Norton, if you 
would take the gavel. I am going to step out and go vote and 
then I will come back.
    Ms. Norton. Of course. Of course.
    Mr. Connolly. Thank you so much for doing that.
    And, Mr. Hice, you are recognized.
    Mr. Hice. Thank you, Mr. Chairman, and I think we are 
having some computer problems and that may have been a part of 
why you couldn't find someone else a while ago to ask some 
questions.
    As I get into this, I do want to highlight the fact that a 
lot of the reason that we are here today, I think, is simply 
because the Democrats, for this entire year, have been pushing 
for vote by mail, and look, we all know when you have vote by 
mail you are not going to be able to get results back in a 
timely fashion.
    We need look no further than simply to ask Chairwoman 
Maloney about that. Her own election took over six weeks to get 
an answer, finally, as to who won, and now we are looking at it 
on a national basis and we are here complaining that less than 
three weeks was involved in having a transition with GSA.
    Well, a lot of that can be attributed to the fact that we 
have been pushing and accepting across the country vote by 
mail, which is a disaster on multiple fronts. But rather than 
focus on the transition that is already underway, I would like 
to speak to the fact that the majority is holding this hearing 
because they are frustrated with the fact that states are 
exercising their right to question and investigate 
irregularities in this 2020 election.
    And, frankly, I find this to be gross hypocrisy because the 
Democrats were consistently questioning the results of the 2016 
election until recently. In fact, the talk of impeaching 
President Trump started before he was actually even elected.
    In April 2016, Politico posted an article suggesting that 
Representative Alan Grayson said that Trump's insistence on 
building a wall on the U.S.-Mexico border could lead down a 
path of impeachment.
    In 2017, Al Green and Brad Sherman, in the first years of 
his presidency, introduced a resolution impeaching the 
president due to high misdemeanors. Then there is the whole 
Russian collusion thing that we have already talked about, a 
falsely peddled narrative that went on for years and cost the 
taxpayers tens of millions of dollars.
    You have Heba Abedin, the sister of Hillary Clinton's top 
aide, Huma Abedin. She used Facebook to call on the Justice 
Department to request an audit of the vote of the 2016 
election.
    Concerns about the voting machines also are nothing new. In 
fact, a member of this committee on the other side of the aisle 
validated fears in voting machine irregularities and introduced 
legislation to prevent states from contracting with firms owned 
or influenced by non-U.S. citizens.
    This bill would have impacted at least two very large 
companies, one of which would be the Dominion voting systems. 
And a Democratic senator, in a speech at an election security 
conference in Washington, DC, said that the voting machine 
lobby literally, and this is a quote, ``literally think they 
are above the law. They are accountable to no one and they have 
been able to hot wire the political system in certain parts of 
our country,'' end quote.
    So, confidence in the democratic process is not a partisan 
issue. If we spend millions of dollars giving credence to the 
Russian collusion narrative then, certainly, we ought to be 
able to give a few weeks to ensure that the election that just 
took place was done so with integrity, and I would think also 
that we should be holding legislative investigative hearings to 
explore the elective--elect irregularities in order to earn 
back the trust of the American people. I think all of this is 
extremely important.
    Mr. Stier, do you agree that a Presidential transition 
doesn't just start after ascertainment or even once the 
candidates are declared that the preparations for this huge 
undertaking should actually take place months before the 
election?
    Mr. Stier. Absolutely. It is a very powerful point that you 
make there. If you are going to be ready you have to start 
early, and this committee and Congress has, over time, made it 
easier and easier for that to happen and I think there are some 
additional improvements that could be made that would reduce 
the concerns around ascertainment because more work would be 
done pre-election.
    Mr. Hice. OK. And would you agree that that actually took 
place?
    Mr. Stier. Yes. The Biden team has followed best practice. 
They started early, they started smartly, and they started with 
good people.
    Mr. Hice. OK. Thank you very much. I see my time has 
expired. I yield back.
    Ms. Norton.[Presiding.] The gentleman's time has expired.
    Next on the list, as called by the chairman, would be Mr. 
Sarbanes, if he has finished voting.
    Mr. Sarbanes?
    Mr. Sarbanes. Yes. Thank you, Madam Chair. I appreciate it. 
Can you hear me OK?
    Ms. Norton. I can hear you.
    Mr. Sarbanes. Great. I want to thank the witnesses for your 
testimony.
    Mr. Stier, I would like to begin with you and may end with 
you, depending on how long your answer is. But a lot of the 
attention around the transition tends to focus on the higher 
level political appointees and so the process by which one 
group is anticipating leaving and the other one is coming in.
    But I would like to get your perspective from the work that 
you do. You know how the rank and file operate and do their 
jobs inside these agencies and we are talking about 
professionals who care deeply about the mission of the 
organization that they serve.
    They want to do a good job, and I imagine that these 
transitions create a tremendous amount of anxiety for the rank 
and file because they want to make sure that the agency handoff 
is happening in a way that represents high standards and 
professionalism.
    So, perhaps you could speak to what that looks like, the 
kind of inside mechanics. Pick an agency if you would like as 
an example and talk about what it means for that civil servant, 
that Federal worker, who cares deeply about their job and 
making sure that the function of the agency is being carried 
out in a--at a high level and how important it is for them to 
have the transition done well or for there to be problems with 
the transition.
    Mr. Stier. So, Congressman Sarbanes, a fabulous question.
    The reality is that it is the career work force that is the 
engine room of our government and it is vital that that career 
work force is tended well and engaged well by new political 
teams if our country is going to be able to address the 
critical issues that we have in front of us, the economy, you 
name it.
    A quick example. You said to give you an example of an 
agency. The Small Business Administration in this past year had 
to put out 5 million loans, which is 80 times what it has done 
previously, and that was, obviously, to help critical small 
businesses across the country.
    That is a phenomenal workload and that work is being done 
by career civil servants. So, you ask what the experience of 
the work force, the career work force, in a transition.
    The motivation of that career work force is to get mission 
done and it needs leadership in place to help provide policy 
guidance. The transition is often a time of uncertainty and 
that uncertainty causes challenge. We all know that in any 
management context uncertainty is the bane of good management.
    And so in a transition context, it is very important for 
the existing leadership to be supporting the career work force 
and continuing the work of government and that the handoff in 
leadership is smooth.
    The first task of any new leadership team should be to 
engage effectively that career work force because their ability 
to get stuff done is going to depend on that relationship, and 
that smooth handoff is exactly what we are talking about here.
    It is one of the reasons why I think we should have fewer 
political appointees because it would make that handoff easier 
and you would have leaders that stayed around longer.
    One of the big challenges in the context of the system we 
have right now is we have short-term leaders that don't align 
against the long-term problems that government is intended to 
address or the health of the institutions that they are in fact 
responsible for.
    Last point, if you look at our testimony, we believe the 
political leaders should be held accountable for good 
performance and for their effective management of the career 
work force, and then we would have better return on taxpayer 
dollars for more effective government.
    Mr. Sarbanes. Let me--thank you. That is exactly what I was 
interested in hearing. Let me do a followup here.
    If you had the political leadership in an agency resisting 
the transition for any period of time, could that translate 
into actually having rank and file staffers in these agencies, 
effectively, being told to sit on their hands, so they are 
literally stuck not being able to perform the duties that would 
ensure a smooth transition. Could it take on that appearance?
    Mr. Stier. So, one of the improvements that this committee 
and Congress helped make this last year is to ensure that it is 
a career leader in charge of the transition preparation in 
every agency. That was an improvement that was quite important 
that you just did and, I think, makes a big difference.
    But, fundamentally, everyone should be on the same team and 
that team needs to make sure that our government is working 
effectively. The political team coming out needs to off board 
as effectively as the incoming team did.
    Lisa talked about the Bush exit as the gold standard of 
handoff and we should use that as the model for how to do that 
right.
    Mr. Sarbanes. Thank you very much.
    Ms. Norton. Thank you very much, and I thank the gentleman 
whose time has now expired.
    I now call on Mr. Palmer.
    Mr. Palmer. Thank you, Madam Chairman, and I do want to 
express my condolences to my friend and colleague, Mr. 
Sarbanes.
    You are in my prayers, especially this time of year, and I 
lost my dad in 2012 and I think about him often, and I hope, 
and I know you do, you are going to have many fond memories. 
But you will miss him.
    Mr. Sarbanes. Thank you very much. I appreciate it. Thank 
you.
    Mr. Palmer. Mr. Stier, are you aware of previous precedent 
set by the Democrats in delaying the ascertainment of a 
president-elect and circumstances of lately contested 
elections?
    Mr. Stier. I think the last time, and I am not sure if the 
reference is to the 2000 election, the last time you saw a 
delay in the ascertainment was in the 2000 election, and it had 
real consequence.
    We have already heard about the 9/11 report itself. You 
know, if you look at the numbers, the 1,200 Senate-confirmed 
positions, President Obama was the high water mark of getting 
his senior team in place.
    In the first 100 days he was able to get 69 in. That is--
you know, that is the high water mark. But President Bush, in 
light of the shortened transition period, was only able to get 
half that number in in the first 100 days. So----
    Mr. Palmer. I would like to point out, though, in that Bush 
43 transition that one of--for me, one of the really 
problematic issues related to 9/11 was the delay over the 
confirmation of John Ashcroft as the U.S.--United States 
attorney general, which was entirely political. But that is 
another topic for another time.
    And I do appreciate your answer on that because it was the 
former Clinton GSA administrator, David Barram, who testified 
before this subcommittee about the delay, delaying the 
ascertainment, and Dante--former Congressman Dante Fascell was 
quoted by my good friend, Mr. Connolly.
    I just want to read you a quote from the hearing regarding 
the legislation that governs this from 1963. He said, ``There 
is nothing in the Act that requires the administrator to make a 
decision which, in his own judgment, he could not make. If he 
could not determine the apparent successful candidate he would 
not authorize the expenditure of funds to anyone and he should 
not.''
    I think in this case, as the process has gone along, the 
GSA administrator has made a decision and the process has 
begun. Would you agree with that, Mr. Stier?
    [No response.]
    Mr. Palmer. You are mute. I am sorry. You are muted.
    Mr. Stier. Thank you for that. I am competing with the 
clerk on who is unmuting so we are going back and forth on that 
there.
    But the answer is that I am very impressed with the fact 
that I hear bipartisan interest in clarifying the standard for 
ascertainment. I think it needs to happen.
    We need to make sure that this is viewed in fact as a 
ministerial decision, that there isn't as much discretion 
involved so that we can see, you know, more investment in 
transition activity faster.
    Mr. Palmer. Well, again, quoting former Congressman 
Fascell, he says in the unlikely proposition that would happen 
and he was, at that time, it had only happened three times. 
Actually, this is the fifth time.
    He said that if the administrator had any question in his 
mind he simply would not make any designation in order to make 
services available by the Act.
    With that in mind, I don't think the Act really contains 
the guidelines to assist the GSA administrator. Do you think we 
need to make some changes? Amend the Act?
    Mr. Stier. Absolutely. I think we do and--or you do, 
rather, and to amend it to make sure that you have clarity that 
this is a low bar, and, as I indicated earlier, you could also 
reduce the importance of that decision by allowing more work to 
be done pre-election so this doesn't become as big a gate as it 
currently is.
    Mr. Palmer. I appreciate your response, and I need to go 
vote so I am going to yield the balance of my time, Madam 
Chairman, and I thank you.
    Ms. Norton. I thank--I thank the gentleman for his 
questions.
    By order of seniority, next would be Mrs. Maloney.
    If she is not back, by order of seniority, my questions 
would be next.
    I do want to express my condolences to my friend and 
neighbor, my next-door neighbor from Maryland, Mr. Sarbanes, 
along with Republicans--as Republicans and Democrats have 
already done on this committee.
    I want to indicate that ranking--Ranking Member Hice cited 
the Bush v. Gore as taking even more time to certify. But I 
hope that we understand that that was because of the fact that 
the election had not been called, I believe, in Florida because 
of hanging chads. The election was called, for all intents and 
purposes, on November 3 on this occasion.
    My question goes to a serious concern I have about the 
relationship of the--of the transition and its 20 days lost to 
the public health emergency that we are now experiencing, our 
record high daily case counts, even though there is, I am happy 
to note, hope on the horizon that a vaccine will become 
available in a few days.
    My question, first, is to Ms. Kumar. How important is a 
seamless transition threatened in the midst of a national 
health crisis?
    Ms. Kumar?
    Ms. Kumar. Yes. Yes, I am now unmuted.
    It is--it is terribly important to get a hold of the--of 
the pandemic and to--in order to do that, the Biden team needed 
to have information on the distribution process and all of the 
different producers of vaccines of the differences between 
them, and much of that information----
    Ms. Norton. Go ahead.
    Ms. Kumar. Yes. That information could not be provided 
until the administrator ascertained a president-elect, and what 
ended up happening was that they had to--the Biden team would 
then have to do work arounds and talk to people who are 
knowledgeable from--who had been in the administration earlier, 
which is not a good substitute for getting the latest 
information which is required on this.
    So, that is a good example of the kinds of crises that 
occur that you need to have the transition start as early as 
possible and with the detailed information provided to the next 
person who is coming into the presidency.
    Ms. Norton. Yes, this pandemic does present much more than 
a wrinkle for the transition.
    Ms. Brown, how could--how could delays in assessing 
national health information affect plans to distribute and 
administer the vaccine?
    Ms. Brown. So, I think Martha has addressed this. I think 
you really want to make sure is that the incoming--that 
President-elect Biden's team is fully briefed on Operation Warp 
Speed, knows what CDC is doing, knows what DOD's distribution 
plans are so that--and how are they working with states 
already, what has been--how much vaccine has been ordered over 
what period of time. All these questions.
    It is, as you well know, an organizational challenge to 
distribute the vaccine across the country. And so staying with 
the nitty gritty detail of all of that is extremely important 
for the country to make sure that when they take office that 
there is no blip in that distribution.
    Ms. Norton. Well, Mr. Stier, finally, as we look at what 
the president-elect is doing on the pandemic response, can you 
indicate what he is doing right on his response, given these 
delays?
    Mr. Stier. So, as has been--thank you, Congresswoman.
    As has been noted earlier, the Biden team got, you know, 
going very early with professionals to pre-election and I think 
the most important thing they did right is starting very early 
to prepare for the possibility that they would ultimately be in 
charge and bringing in real expertise to--around public health 
issues to get up to speed and to look at the different options.
    You know, obviously, this is, as you just heard from 
everybody else and you know yourself, a huge task, and I think 
the only point I would offer beyond what has already been made 
is that there are a lot of unknowns and one of the more tricky 
aspects of this for an incoming team will be not only knowing 
what has happened already but being up to speed and having the 
relationships both with the career work force and with 
colleagues across the government so that they can deal with a 
fast-moving and challenging situation and make good choices.
    That is really why we need great leader support.
    Ms. Norton. Thank you. Thank you very much. The gentleman's 
time has expired.
    Next, would be Mr. Comer.
    Mr. Comer, are you there?
    Mr. Comer. Yes, I am.
    Ms. Norton. You can--you may proceed.
    Mr. Comer. Thank you. Before I begin my questions, I, too, 
would offer my sincere condolences to Mr. Sarbanes.
    Let me begin with Mr. Stier. Joe Biden has said that the 
outreach from Federal agencies has been sincere, that it has 
not been begrudging so far and I don't expect it to be.
    Is that sentiment consistent with what you are hearing 
about how the transition is going right now?
    Mr. Stier. It is. I think that, again, it is the career 
work force that is most central to providing information to the 
Biden team.
    My understanding is that those communications are now 
happening and they are happening well. There are pockets of 
challenge but there is also an escalation process in place, and 
I want to doff my hat in particular to Chris Liddell, who was 
the No. 2 in the Romney Readiness Project, is now deputy White 
House chief of staff.
    He is expert on these issues and I think has been really a 
phenomenal leader in government in trying to make sure that the 
right preparation happened and the right things are happening 
now.
    Mr. Comer. I am glad to hear that because I don't think 
that is the message that is being portrayed by a lot of the 
mainstream media. So, I am really happy that we have had this 
hearing to get the truth out.
    Ms. Kumar, let me ask you, Clay Johnson, who led George W. 
Bush's transition team, has said that Biden, quote, ``Can't 
wait to be sure that the president-elect really is the 
president-elect. His advisors have to hurry up and move 
forward.''
    Do you agree with his sentiment that a candidate's 
transition team should already be working on identifying key 
senior staff and cabinet positions even before the official GSA 
ascertainment takes place?
    Ms. Kumar. Yes. I think that all of us would agree on that, 
that the earlier you get started the better transition you are 
going to have.
    In Clay Johnson's case, he began in about over a year 
before the--before the transition actually occurred. Was the 
executive director and worked on the appointments process.
    Because there is so much to do, you have to set up a system 
where you are going to handle all of the resumes that come in, 
where if you have--I think the Obama people had over 200,000 
resumes come in, and you have to line up--line up your team and 
figuring out the choices of what are your priority issues and 
then work at filling those posts early. And you can see that 
one of the first things that Biden did was filling a task force 
on the virus because that was his priority issue.
    Mr. Comer. Uh-huh.
    Ms. Brown, you served as co-director of Agency Review for 
the Obama/Biden transition team in 2008-2009. Is that correct?
    Ms. Brown. Correct.
    Mr. Comer. Can you describe how Agency Review works to 
ensure that a president and their team is ready to hit the 
ground running on day one?
    Ms. Brown. So, they--essentially, the teams go into each 
agency and try to do their best to learn what are the salient 
issues, essentially, what is going to hit you in the face when 
you walk in the door, and then what are the opportunities for 
implementing a president-elect's agenda.
    So, what this means is sitting down in multiple meetings 
with career staff involved in the different elements of each 
agency. If you think about something like HHS or DOJ, 
obviously, they have enormous number of, essentially, 
subagencies and so each one of those you need to go into, make 
sure you understand what are they working on at the time.
    And, often, Agency Review focuses on what is going to 
happen in the first 100 days and so that you really make sure 
that you are ready when you come in. You know what is going to 
be on your plate and whether it is litigation, regulation, a 
programmatic issue.
    And if I might add to what Martha and Max added, one, even 
if a president-elect has spent a lot of time before the 
election thinking about who they are going to nominate, which I 
agree is incredibly important. You need to back that up.
    You still have to do background checks on everyone and that 
becomes a bottleneck. It is something with the FBI, OPM. That 
is something that often slows down the nominations and is 
something that I believe can't happen until after the election 
in thinking about announcements that----
    Ms. Norton. The gentleman's time has expired.
    Next will be Mrs. Maloney if she is back.
    [No response.]
    Ms. Norton. If she is not, next will be Ms. Plaskett.
    Ms. Plaskett?
    Ms. Plaskett. Yes, thank you, Madam Chair, and thank the 
witnesses who are here. This is very important information that 
we are going through and I appreciate all of your perspectives.
    The Trump/Biden Presidential transition is the first time 
that the majority of a transition will be conducted virtually 
due to the pandemic. In fact, since March 2020, most of the 
Federal work force has been working from home to adhere to 
social distancing guidelines.
    Given the rise in coronavirus cases, it does not appear 
that teleworking is going to go away anytime soon. In addition 
to dealing with the uncooperative outgoing administration, the 
Biden transition team is in the throes of building a new 
administration in an abbreviated transition, and virtually.
    Mr. Stier, what challenges has the Biden transition team 
faced due to this virtual operation, if you are aware of any?
    Mr. Stier. Congresswoman, you did such a great job of 
outlining the challenges. It is unbelievable, in the best of 
circumstances, how large this task is and how meaningful and 
difficult it is.
    But it is, clearly, way more difficult in the context of 
the pandemic, and as you noted, the Biden team is forced in at 
least two ways to have to address doing things virtually for 
itself, for its own team, is having to perform all the 
functions of--just startup and a very intensive startup done 
virtually and then having to interact, largely, with the 
Federal work force virtually as well, and that includes, 
obviously, engaging with potential appointments--appointees 
that, you know, you might ordinarily have more face-to-face 
contact with, in-person contact, than you can in this context.
    So, you know, I think that the Biden team really, you know, 
deserves a lot of credit for the intensity of its efforts very 
early on. They saw this.
    They began organizing in the springtime so they have been 
preparing for having to do these things. It doesn't make it--
the problem--go away. You know, it just means that they are 
better able to manage it and they have got great people doing 
it.
    I do think that one other point you made there, though, 
about the Federal work force being virtual, I would hope also 
at some point this committee could come back to the fact that 
the Federal work force has done an exceptional job of acting 
virtually and there is a lot of good lessons learned from that, 
that government can be done even better, more efficiently, more 
cheaply, by the virtual activity that is taking place now.
    Ms. Plaskett. Mr. Stier, that was leading to my second 
question was that experience of doing this transition virtually 
can give us--you know, inform future Presidential transitions 
and how to do it in a more truncated, potentially cheaper 
fashion.
    I think this would go toward your discussion earlier about 
maybe there not being a necessity for having as many political 
appointments or as many set confirmed appointments.
    You know, not having to take people around to all of the 
senators to have these discussions, or do we need to do it and 
should it be virtual and will that speed up the process? So, I 
am wondering if you have any thoughts about that.
    Mr. Stier. So, certainly, on your first issue, I 100 
percent agree with that and, again, I mentioned earlier Senator 
McCain had introduced legislation in 2010 noting that it would 
save $800 million over 10 years to cut the number of political 
appointees in half and, actually, the number of political 
appointees, the 4,000 that are used today, is double what they 
were in 1960.
    So, that is one plain lesson and I think you are exactly 
right that we do see a number of overall political appointees 
and those--especially those that are requiring Senate 
confirmation would make this process a lot easier. The Senate 
is a--you know, is a small pipe and a lot is pushed through it 
and it, frankly, is undoable to get 1,250 people in in real 
time.
    On the virtual point, it is a very interesting one that you 
raise. I noted earlier that we are still midway through the 
race. I think we are going to learn a lot of lessons. When this 
is all over, you know, we have always done an assessment after 
the fact.
    It has taken a bunch of time because there is a lot of 
information to gather. But I am confident that there will be 
improvements and efficiencies that are available that we can--
we can adopt longer term by doing things virtually.
    Ms. Plaskett. Thank you.
    And with the short time that I have remaining, Ms. Brown, 
there are review teams that physically need to enter Federal 
buildings to do things such as reviewing classified material. 
Given your experience with that review process, how might this 
hinder the transition team's ability to be fully prepared to 
take office on day one?
    Ms. Brown. Congresswoman, you are absolutely right. There 
are certain things that can't be done virtually, as Max has 
indicated. I think we have all become, unfortunately, 
accustomed to communicating this way. But it is not a perfect 
substitute. It is harder to suss out the jewel that you were 
talking to.
    You can't deal--you cannot communicate classified 
information over Zoom. I think that is, obviously, the biggest 
challenge and so that needs to be done in person.
    I will say it should be able to be done in person. Right 
now, people are working at supermarkets and driving buses and 
Federal employees who need to be at work are at work, and so I 
think that is something that we, as a government, should still 
be able to accomplish with, of course, all of the right safety 
precautions.
    But you are quite correct, that is a piece of it that needs 
to be done in person.
    Ms. Plaskett. Thank you very much, Madam Chair, for the 
opportunity to question these witnesses, and I yield back.
    Ms. Norton. I thank the gentlewoman, whose time has 
expired.
    Is Mrs. Maloney back?
    [No response.]
    Ms. Norton. If not, we will go to Mr. Raskin.
    Mr. Raskin. Thank you, Madam Chair. My thoughts, too, are 
with my friend, John Sarbanes, and his family. His father, 
Senator Sarbanes, was a model public servant who believed in 
public service and was a champion of government and the people 
who served us in it, and he will be sharply missed by the 
people of Maryland and by the people of our country.
    Madam Chair, this administration has been messing with the 
civil service. First, the president issued executive orders 
gutting collective bargaining and attacking unions. Then they 
shut the government down. Then they tried illegally to abolish 
the Office of Personnel Management.
    Now, President Trump has issued an executive order calling 
for the creation of a new Schedule F, which would allow 
reclassification of hundreds of thousands of expert employees 
in the Federal civil service and take away their ability to 
appeal adverse actions taken against them, making them easy to 
remove and easy to replace with unqualified or less qualified 
political operatives.
    Mr. Stier, you run a group that promotes nonpartisan good 
government. Does this executive order make government better? 
Does it promote the value of expertise?
    Mr. Stier. Thank you, Congressman Raskin, and the answer 
is, clearly, not. It is really a fundamental attack upon the 
core notion that we need merit-based system professionals to 
deal with the really difficult problems that we face as a 
Nation.
    And it is frightening, and I would just offer the 
additional point that there has been some conversation that 
this could be easily overturned by an incoming President Biden 
and my view is that the damage that could be done between now 
and the next administration is really serious, and to the 
extent that this can be stopped it would be to the people's 
benefit because, ultimately, it will lead to incredible 
inefficiencies, incredible harm to the public and to public 
servants.
    It is worth noting that our system was based--
fundamentally, it started after a president was assassinated by 
a would-be job seeker and there was a recognition that that is 
not the way to run a government, that we actually needed people 
who were selected for their expertise because they were public 
stewards and had the ability to solve big problems. Those are 
the ones that we needed in government.
    Mr. Raskin. You recently wrote an op-ed in ``USA Today'' 
which, Madam Chair, I would like to submit for the record, if I 
could.
    Ms. Norton. So accepted.
    Mr. Raskin. Thank you.
    And in that piece you said that these actions could make 
our government less accountable and less effective.
    But, Mr. Stier, you have actually called for reform of the 
civil service. I am wondering why do you think this is not the 
reform that is required right now?
    Mr. Stier. So, thank you again, for that opportunity to 
answer that question.
    There is no doubt that our system does need reform. You 
know, you look at our pay system right now. It was created in 
1949. I don't know of any other organization that is running 
successfully with a pay system from 1949.
    So, there is definite modernization that needs to occur. 
The challenge with the Schedule F is that it undermines the 
basic premise that our career work force should be selected for 
their expertise and they should not be gotten rid of unless 
there is a problem--there is a cause, a real cause, for getting 
rid of them.
    The Schedule F, what it would enable is a political 
appointee to fire a whistleblower, someone who has identified 
waste, fraud, and abuse, and therefore gets fired for it. Or 
that person never raises their hand because they know they can 
be fired. That does not serve the American people.
    Mr. Raskin. Thank you.
    Ms. Brown, you ran the Agency Review teams for President 
Obama in the 2008 transition. How important was the presence of 
career civil servants to you during that transition process?
    Ms. Brown. Thank you for that question.
    It is absolutely indispensable. Most of our names went into 
agencies were with career civil servants. If you think about 
it, it is only the very top level of these enormous agencies 
that have--with political appointees.
    Everybody else is a career employee and the individuals who 
really know the ins and outs of programs, who are doing the 
work of the government every day are career civil servants.
    And so they are the ones that you really want to talk to 
and need to be talking to as you are learning about what is 
going on in that agency--agency review.
    Mr. Raskin. Well, I appreciate that.
    Madame Chair, I just want to say that OMB has identified 
425 people, nearly 90 percent of its staff, for conversion to 
this Schedule F, and this creates real risk that thousands of 
people will be removed from their jobs right in the midst of 
the pandemic, right in the middle of the holidays, and right 
when we need them most for this Presidential transition. We 
must not allow this plan to go forward.
    And I yield back to you, Madam Chair.
    Ms. Norton. All right. I thank the gentleman for those 
remarks. His time has expired.
    The next person who is available appears to be Ms. Speier.
    Ms. Speier, are you back?
    Ms. Speier. I am. Thank you, Madam Chair.
    I would like to focus on midnight rulemaking. In the final 
months of any Presidential administration there is a high 
volume of rules that are issued.
    This is oftentimes called midnight rulemaking because in 
the attempts in the waning hours of an administration to 
achieve political policy goals they do them in the dark of 
night.
    So, it is an endless problem. It has gone on from one 
administration to the next. I am particularly concerned about 
what might happen at the end of this administration, and I know 
that Chairman Connolly has introduced the Midnight Rulemaking 
Review Act that would require GAO to create a kind of 
spreadsheet of major rules promulgated near the end of an 
administration.
    So, Ms. Brown, would incoming administrations benefit from 
a list of regulations that an outgoing administration 
promulgated at the eleventh hour?
    Ms. Brown. Definitely. Those are regulations that they are 
going to need to be addressing the minute they walk in the 
door. So, it would be extremely helpful to have those.
    Ms. Speier. So, having said that, the only options to 
reverse the last-minute regulations are the congressional 
review authority, correct?
    Ms. Brown. So, it depends upon the stage that the rule is 
in. If it is proposed, then you could act quickly to pull it 
back. If it is final, you are absolutely right, you are either 
going to have to go through the congressional Review Act or go 
through formal rulemaking.
    Ms. Speier. And in that situation it is a majority of 
members of both houses to overturn a last-minute regulation, 
correct?
    Ms. Brown. It is not an easy process. You are correct.
    Ms. Speir. Ms. Kumar--thank you.
    Ms. Kumar, you have studied Presidential transitions. What 
have you found in terms of attempts to fill legacies through 
the use of regulatory process at the end of an administration?
    And you are muted.
    Ms. Kumar. Yes. OK.
    As Lisa has talked about the problem, and one of the things 
that it does is it starts a new administration on a negative 
note of things, particularly if there is a party change, that 
they then have to spend their time rather than working on their 
priorities, making sure that they--that they address the rules 
that have been left behind.
    In the Bush Administration, at the end of the 
administration, Josh Bolten, who was the chief of staff and 
also was running the transition out, sought to address this 
issue by encouraging the department secretaries by giving them 
a timetable that they had to--that they had for issuing rules, 
and they had--his memo was on May 9 in 2008.
    And so it said except in extraordinary circumstances, 
regulations to be finalized in this administration should be 
proposed no later than June 1, 2008, and final regulations 
issued no later than November 1.
    So, that was an attempt to, by the sitting administration, 
to get hold of the process and it had mixed success because the 
department secretaries are dealing with the hot-button issues 
and they put this toward the end so there were a lot of appeals 
that they had to deal with.
    But it was an internal attempt to deal with it.
    Ms. Speier. So, has that same process been used in the 
Trump administration, do you know?
    Ms. Kumar. No.
    Ms. Speier. You don't know, or no, it hasn't?
    Ms. Kumar. As far as I know, no, it has not. I think there 
have been--there have been a lot of rules that have been 
issued. One of the first things that an administration does 
when they come in is they stop the printing of the Federal 
Register for anything that might have been done at the very end 
because if they are not printed in the Federal Register then 
they are not--they are not--then they are not live.
    Ms. Speier. All right. Thank you.
    I just want to point out that the congressional Review Act 
has been used to overturn 17 rules. Sixteen of them were 
overturned by President Trump in the first two years and these 
were rules of the Obama Administration that protected water, 
fair pay, resource management, and unemployment compensation.
    And with that, I yield back, Madam Chair.
    Ms. Norton. The gentlelady's time has expired, and the 
chairman is back, I believe.
    Mr. Connolly.[Presiding.] Thank you so much. Thank you for 
doing such an able job, Madam Chairwoman. I appreciate it.
    Mr. Hice. Mr. Chairman?
    Mr. Connolly. Yes, Mr. Hice?
    Mr. Hice. Thank you. Thank you, Mr. Chairman.
    Earlier, you made the point that Republicans had signed a 
letter announcing the election to be over and calling for 
ascertainment of the winner.
    I would like to request unanimous consent to enter into the 
record an article in the Washington Post by Beth Newburger, who 
was a GSA associate administration for public affairs during 
the Clinton Administration. The title of the article is ``Emily 
Murphy Was Right Not to Recognize Biden's Win Until Now.''
    So, basically, what we have is a Democrat, one who was very 
much intimately involved in the process, saying that 
Administrator Murphy was correct.
    I would like to enter it into the record, please.
    Mr. Connolly. Without objection, it is so ordered.
    Mr. Connolly. Thank you.
    And I just want you to know that, apparently, I am in good 
company with President-elect Biden. I won my reelection with 72 
percent of the vote, my best in a competitive race ever, by a 
margin of 140,000 votes, and my Republican opponent has yet to 
concede.
    I not only was certified as the winner, I now have my 
election certificate ready for framing. So, it is kind of a 
common illness, apparently, among some to just not recognize 
the results of elections.
    I want to thank all of our panel and I want to particularly 
thank my dear friend, Eleanor Holmes Norton, for filling in for 
me while I had to cast several votes with my own and a proxy on 
two bills before the House floor.
    This is a very important hearing and I thank my friend, 
Jody Hice, for his contribution. I mean, I do think we can--
look, we are not going to agree on some politics, a lot of 
politics, surrounding this issue.
    But I do think that Mr. Hice and I and others on the 
subcommittee and the full committee can try to find common 
ground, though, in dealing with some of the crevices that have 
been exposed that need to be fixed in law.
    You know, Emily Murphy herself, as the GSA administrator, 
urged Congress to pass legislation to address the ambiguity 
around the process of ascertainment and to better define what 
ascertainment is and what it has triggered so that that burden 
is not in the hands of some future administrator to make that 
decision.
    And I think my friend, Mr. Hice, might be receptive to 
trying to address that legislatively, along with some other 
issues we have got.
    Mr. Hice. I am. I am, thank you.
    Mr. Connolly. Thank you, Mr. Hice. I welcome that 
collaboration and let us try to do that.
    Mr. Stier laid out a number of legislative suggestions for 
the partnership that I think we also ought to take a look at. 
They are nonpartisan.
    God knows Mr. Stier has gone out of his way to stress that, 
and but that--you know, that is a good thing, and I do think 
there is fertile ground there for further legislative action.
    In my own opening statement, I talked about sort of a 
midnight regulation process and, again, that is building on 
bipartisan legislation using--utilizing GAO as the analytical 
tool to try to bring to bear some judgment on what happened--
what is good, what is bad, what is indifferent, and what, if 
anything, we can and should do about it.
    So, I want to thank all of our witnesses for their remarks. 
I want to commend my colleagues for participating in, I think, 
a very timely and important conversation. I want to insert into 
the record a statement of support for the hearing for the White 
House Transition Project.
    Mr. Connolly. I also want to thank our able staff. These 
are not easy circumstances in which to organize a hearing. I 
want to thank our witnesses for their cooperation and their 
patience with the technology and with the schedule of the 
House.
    And without objection, all members will have five 
legislative days within which to submit additional written 
questions for the record, and if you go through the chair, we 
will make sure they are entered into the record.
    I ask our witnesses to respond as promptly as possible to 
any written questions we forward to them, and with that, this 
hearing is adjourned.
    [Whereupon, at 11:49 a.m., the subcommittee was adjourned.]
    

                                 <all>
</pre></body></html>
